TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                 Customer Service at
                            Taxpayer Assistance Centers
                                Showed Improvement
                            During the 2006 Filing Season



                                         August 30, 2006

                              Reference Number: 2006-40-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 30, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                          (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Customer Service at Taxpayer Assistance Centers
                               Showed Improvement During the 2006 Filing Season
                               (Audit # 200640027)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including correct answers to their questions, when visiting Taxpayer Assistance Centers
 (TAC)1 to get answers to their tax law questions. This audit was conducted at the request of the
 Internal Revenue Service (IRS) and in conjunction with the President’s Council on Integrity and
 Efficiency (PCIE) as part of its examination of relief efforts provided by the Federal Government
 in the aftermath of Hurricanes Katrina and Rita. A copy of the final report was forwarded to the
 PCIE Homeland Security Working Group, which is coordinating the Inspectors’ General reviews
 of this important subject.

 Synopsis
 Providing quality customer service is the IRS’ first step to achieving taxpayer compliance. The
 complexity of the tax law has made it even more important that the IRS ensure tax assistance is
 available to all taxpayers because mistakes and misinformation can easily contribute to
 noncompliance. Taxpayers have several options to choose from when they need assistance from
 the IRS, including face-to-face assistance at the TACs. According to the IRS, the TACs served




 1
   Internal Revenue Service employees, called assistors, in the TACs help taxpayers by interpreting tax laws and
 regulations, preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing various other
 services designed to minimize the burden on taxpayers in satisfying their tax obligations.
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



approximately 4 million taxpayers during the 2006 Filing Season;2 approximately 600,000 of
these taxpayers visited for assistance with the tax law.
During the 2006 Filing Season, Treasury Inspector General for Tax Administration auditors,
using 47 standard scenarios, made anonymous visits to 50 TACs and asked 200 tax law
questions. We also developed 10 additional scenarios related to the Katrina Emergency Tax
Relief Act of 2005 (KETRA)3 and visited 20 additional TACs to ask 80 tax law questions related
to the KETRA. TAC assistors:
•   Correctly applied the tax law when answering 145 (73 percent) of the 200 tax law questions
    auditors asked using the standard scenarios.4 They misapplied the tax law for 29 (15 percent)
    of 200 questions asked. Therefore, TAC assistors correctly answered 145 (83 percent) of
    174 questions. For the remaining 26 (13 percent) of 200 questions, TAC assistors did not or
    could not answer the questions and/or referred taxpayers to other IRS sources.
•   Correctly applied the tax law when answering 60 (75 percent) of 80 tax law questions
    auditors asked relating to the KETRA. They misapplied the tax law for 6 (8 percent) of
    80 tax law questions asked. For the other 14 (18 percent) of 80 questions, either the assistors
    did not or could not answer the questions and/or referred taxpayers to other IRS sources.
Assistors answered questions incorrectly because they did not use the required tools. Other
contributing factors include the complexity of the tax law and the number of potential questions
assistors have to be prepared to answer. When TAC assistors do not or cannot answer questions
and/or refer taxpayers to other IRS sources, taxpayers ultimately are provided no service.
In addition, taxpayers making payments are not given priority at the TACs. At 1 TAC, taxpayers
waiting for assistance with payments totaling $135,000 were turned away so the IRS could clear
the TAC by the closing time of 4:30 p.m. At a second TAC, a taxpayer sat down next to one of
the auditors and complained about having to wait behind all other taxpayers to make a payment.
Finally, at 10 of 13 TACs where we specifically tested to determine whether auditors with
payments would receive priority, auditors with tax law questions were called prior to the auditors
who only wanted to make a payment. The average wait time for auditors visiting the 13 TACs
was 23 minutes.

Recommendations
The Commissioner, Wage and Investment Division, should develop or modify procedures to
ensure assistors provide answers to taxpayers’ tax law questions. The guidelines should

2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
4
  The accuracy does not include responses to tax law questions related to the KETRA. Those results are reported
separately. In addition, accuracy rates shown throughout this report may not add to 100 percent due to rounding.
                                                                                                                      2
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



reinforce current referral procedures, including how assistors should respond to taxpayers’ tax
law questions when the Publication Method Guide (Guide)5 has not been updated. In addition,
guidelines should be developed and training provided to TAC managers and assistors on how to
manage customer traffic and wait times. This includes educating taxpayers on how the Q-Matic
System works and developing consistent procedures to address and appropriately prioritize
payments when experiencing high customer traffic and wait times.

Response
IRS management agreed with both recommendations. The Field Assistance Office has clarified
its procedures for handling tax law inquiries during the transition period from the beginning of
the filing season until the current year publication and Guide are available. The new procedures
instruct assistors to answer questions if a current year publication is available, even if the Guide
has not yet been updated. The Field Assistance Office also revised its procedures to ensure TAC
managers have a process to better manage taxpayer traffic, including how to assist customers at
the end of the day. The instructions specifically require the solicitation of payments and forms.
To provide better training on managing traffic and wait times, the Field Assistance Office will
update its “Managing a TAC” training. Management’s complete response to the draft report is
included as Appendix VIII.

Office of Audit Comment
Although IRS management agreed with our recommendation, the corrective action implemented
does not address all of our concerns. The newly implemented procedures allow assistors to
answer tax law questions without a current year Guide only when the current year publication
addressing the issue is available. However, assistors are still instructed not to answer tax law
questions when the current year publication is not available, even though they have been trained
on tax law changes. This could create unnecessary burden and considerable frustration when
taxpayers travel to a TAC, wait to be assisted, and are not provided answers to their tax law
questions.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.



5
 The Guide contains over 1,000 pages and covers approximately 77 tax law topics. Assistors are required to use the
Guide as a tool to navigate through the complex maze of tax laws and computations. See Appendix V for more
details on the Guide and its use.
                                                                                                                3
                                Customer Service at Taxpayer Assistance Centers
                               Showed Improvement During the 2006 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayers Received Fewer Inaccurate Answers to
          Tax Law Questions Than in the 2005 Filing Season ....................................Page 3
                    Recommendation 1:........................................................Page 8

          The Field Assistance Office Considered the Effects of
          Hurricanes Katrina and Rita and Took Numerous Actions
          to Provide Broad Relief for Taxpayers .........................................................Page 9
          Taxpayers Making Payments Are Not Given Priority at the
          Taxpayer Assistance Centers ........................................................................Page 11
                    Recommendation 2:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Taxpayer Assistance Center
          Service and Quality Assurance .....................................................................Page 18
          Appendix VI – Taxpayer Assistance Centers Visited
          During the 2006 Filing Season .....................................................................Page 21
          Appendix VII – Accuracy Rates by Tax Law Topic
          During the 2006 Filing Season .....................................................................Page 22
          Appendix VIII – Management’s Response to the Draft Report ...................Page 24
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season




                                             Background

Providing quality customer service is the Internal Revenue
Service’s (IRS) first step to achieving taxpayer compliance.
The complexity of the tax law has made it even more
important that the IRS ensure tax assistance is available to
all taxpayers. Mistakes and misinformation can easily
contribute to noncompliance. According to the
November 2005 Report of the President’s Advisory Panel
on Tax Reform, in 2004, Americans spent more than
3.5 billion hours doing their taxes, the equivalent of hiring
almost 2 million new IRS employees or more than 20 times
the IRS’ current workforce. About $140 billion (over
$1,000 per family) is spent annually on tax preparation and
compliance.
Taxpayers have several options to choose from when they
need assistance from the IRS, including face-to-face           Taxpayer Assistance Center,
assistance at a Taxpayer Assistance Center (TAC).              Atlanta, Georgia.
According to the IRS, the TACs served approximately
4 million taxpayers during the 2006 Filing Season.1 Approximately 600,000 of these taxpayers
visited for assistance with the tax law.2 The Field Assistance Office has overall responsibility for
400 TACs in 5 geographical areas throughout the United States.3
IRS employees in the TACs, called assistors, help taxpayers by interpreting tax laws and
regulations, preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing
various other services designed to minimize the burden on taxpayers in satisfying their tax
obligations. Operating guidelines require assistors to identify themselves, provide their
identification numbers either verbally or visually to all taxpayers, and assist taxpayers
professionally and courteously. Assistors are trained and expected to be knowledgeable in over
300 tax law topics with approximately 400 subtopics. They are expected to be able to respond to
taxpayer issues for the current and prior tax years. See Appendix V for details on how the TACs
provide assistance and ensure quality customer service.


1
  The filing season is the period from January through mid-April, when most individual income tax returns are filed.
2
  The IRS provided the number of taxpayers that visited the TACs for assistance with the tax laws. We did not
verify the accuracy of the number.
3
  The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
                                                                                                            Page 1
                              Customer Service at Taxpayer Assistance Centers
                             Showed Improvement During the 2006 Filing Season



2006 Filing Season readiness
In preparation for the 2006 Filing Season, the Treasury Inspector General for Tax Administration
(TIGTA) conducted a review to determine whether the Field Assistance Office adequately
planned for the 2006 Filing Season and considered and accounted for the effects of Hurricanes
Katrina and Rita during filing season preparations. We reported that the Field Assistance Office
issued a Fiscal Year 2006 Program Letter that identified and communicated policies, goals, and
objectives to Field Assistance Office employees.4 The Program Letter states that the Field
Assistance Office expects to more than meet all Fiscal Year 2006 challenges, including the
mandate from Congress to keep all TACs open in Fiscal Year 2006.
In May 2005, the IRS announced its plans to close 68 TACs in Fiscal Year 2006. In announcing
the planned closures, the IRS stated that taxpayers would have continued access to tax forms,
information, and tax preparation through IRS.gov, telephone assistance, and volunteer tax return
preparation. While legislation required the IRS to postpone the plan to close any TACs for
Fiscal Year 2006, the IRS still considers closing some TACs as a viable option to reduce
operational costs. These circumstances all contributed to the TACs’ staffing shortages and
presented the Field Assistance Office with a significant challenge in preparing for the
2006 Filing Season. As of January 31, 2006, the Field Assistance Office had completed critical
hiring, including frontline technical employees. The Field Assistance Office also brought back
all seasonal employees,5 detailed former TAC assistors from other IRS organizations back to the
Field Assistance Office, and deployed TAC assistors to multiple locations to ensure all TACs
would be open.
We conducted this audit, at the request of the IRS Customer Assistance, Relationships, and
Education function in the Wage and Investment Division, during the period January through
May 2006. From January through April 2006, auditors asked 200 questions during
100 anonymous visits to 50 TACs. We also developed scenarios related to the Katrina
Emergency Tax Relief Act of 2005 (KETRA).6 We visited 20 additional TACs to ask 80 tax law
questions related to the KETRA. The responses to these questions were not included in
determining the overall accuracy rate; the results to the KETRA questions are reported
separately. See Appendix VI for specific cities and States visited.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.

4
  The Field Assistance Fiscal Year 2006 Program Letter, dated October 20, 2005, provides a synopsis of the Field
Assistance Office’s prior year accomplishments; highlights important aspects of the procedures it follows in
delivering its services; and provides a brief overview of planned program, systems, training, and communication
initiatives for the upcoming fiscal year. This Letter is posted on the Field Assistance Office’s Intranet for all Field
Assistance Office employees.
5
  Employees temporarily hired to work part of a fiscal year (e.g., during the filing season).
6
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
                                                                                                                 Page 2
                           Customer Service at Taxpayer Assistance Centers
                          Showed Improvement During the 2006 Filing Season




                                         Results of Review

Taxpayers Received Fewer Inaccurate Answers to Tax Law Questions
Than in the 2005 Filing Season
During the 2006 Filing Season, TAC assistors correctly applied the tax law when answering
145 of the 200 (73 percent) tax law questions auditors asked using the standard scenarios.7 They
misapplied the tax law for 29 of 200 (15 percent) of tax law questions asked. Therefore, TAC
assistors correctly answered 145 (83 percent) of 174 questions. For the remaining
26 (13 percent) of 200 questions, TAC assistors referred auditors to other IRS functions, referred
auditors to a publication so they could find the answer for themselves, or did not provide service
at all. Figure 1 shows the detailed results for the 2002 through 2006 Filing Seasons. The IRS
goal for Field Assistance Accuracy of Tax Law Contacts for Fiscal Year 2006 is 80 percent.
                      Figure 1: Comparison of TIGTA Audit Results for
                            the 2002 through 2006 Filing Seasons
                                       80%

                                       70%

                                       60%

                                       50%

                                       40%

                                       30%

                                       20%

                                       10%

                                        0%
                                               Correctly   Referred to   Incorrectly   Incorrectly
                                                                                                     Service Not
                                               Answered    Other IRS     Answered      Referred to
                                                                                                      Provided
                                               Questions   Functions     Questions     Publication
                          Filing Season 2002     51%          0%            29%           20%           1%
                          Filing Season 2003     70%          1%            26%           3%            0%
                          Filing Season 2004     67%          7%            21%           2%            3%
                          Filing Season 2005     66%          3%            21%           8%            2%
                          Filing Season 2006     73%          3%            15%           8%            2%


                      Source: Anonymous visits performed by TIGTA auditors.




7
 The accuracy does not include responses to KETRA tax law questions. Those results are reported separately. In
addition, accuracy rates shown throughout this report may not add to 100 percent due to rounding.
                                                                                                                   Page 3
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



 “Service Not Provided” occurred when the assistor chose not to answer the question because he
or she had not received the current tax year Publication Method Guide (Guide)8 or assumed the
auditor did not have information needed to answer all probing questions. “Referred to Other IRS
Functions” occurred when the assistor chose not to answer the question but instead referred the
auditor to the IRS toll-free number.
During this review, auditors anonymously visited TACs and asked TAC assistors
200 pre-developed scenario questions related to 32 tax law topics. See Appendix VII for a list of
the tax law topics. To calculate and report the quality of customer service, we used the number
of correctly answered questions (145) divided by the total number of questions asked (200). The
IRS disagrees with this methodology. When responding to prior TIGTA reports or reporting its
outcome measure, Field Assistance Accuracy of Tax Law Contacts, the IRS modifies the TIGTA
rates to include only those questions for which assistors provide answers to tax law questions
(for this audit, 174). Questions for which assistors did not provide service or referred auditors to
toll-free telephone numbers or publications are excluded from the rate calculations. The IRS
does not believe referring taxpayers or failure to provide service is the same as not providing a
correct tax law answer. The IRS has used TIGTA results with this modification when reporting
Field Assistance Accuracy of Tax Law Contacts for Fiscal Years 2003 through 2005.
When calculating the tax law accuracy rate using the Embedded Quality system, the IRS
considers a response “complete and correct” only when the assistor obtains sufficient
information to answer the question and gives a correct and complete answer. The IRS’
definition of accuracy does not take into consideration any additional issues or procedures that
do not directly affect the taxpayer. To ensure the response is considered correct and complete,
assistors must follow all of the following Embedded Quality system requirements and correctly
apply the tax law:
    •   Use the Guide or obtain the appropriate publication.
    •   Discuss specific information related to the topic.
    •   Ask all appropriate questions to obtain facts.
    •   Respond to the taxpayer’s issue or question.
Using the Embedded Quality system methodology to calculate TIGTA results for this review, the
accuracy rate is 49 percent. The 2005 Filing Season accuracy rate using the Embedded Quality
system was 39 percent. The lower accuracy rate results because answers are rated incorrect if
the assistors did not use the tools provided properly and did not ask sufficient probing questions.
In addition, the IRS reduces the total number of questions used in the calculation from 200 to
174, again to exclude those questions for which auditors were referred to other IRS functions or
not provided service.

8
 The Guide contains over 1,000 pages and covers approximately 77 tax law topics. Assistors are required to use the
Guide as a tool to navigate through the complex maze of tax laws and computations. See Appendix V for more
details on the Guide and its use.
                                                                                                          Page 4
                         Customer Service at Taxpayer Assistance Centers
                        Showed Improvement During the 2006 Filing Season



Figure 2 shows the breakdown of the accuracy rates for this period, first using the TIGTA
methodology we used for prior reviews, second using the TIGTA methodology as modified by
the IRS, and third using the IRS Embedded Quality system methodology.
                  Figure 2: Responses to 200 Standard Tax Law Questions

                 COMPARISON OF TIGTA AND IRS METHODOLOGIES
                        FOR DETERMINING ACCURACY
                               2006 Filing Season
                                                                            IRS
                                                        IRS             EMBEDDED
                                TIGTA                 MODIFIED        QUALITY SYSTEM
                             METHODOLOGY            METHODOLOGY       METHODOLOGY

                            Number    Percentage Number Percentage Number       Percentage

         Correctly
                              145        73%          145      83%       86        49%
         Answered
         Incorrectly
                              29         15%          29       17%       88        51%
         Answered
         Referred to
         Other IRS             6          3%           0       0%        0          0%
         Functions
         Incorrectly
         Referred to          15          8%           0       0%        0          0%
         Publication
         Service Not
                               5          3%           0       0%        0          0%
         Provided

         Total Questions,
             Overall         200        73%          174       83%      174        49%
          Accuracy Rate
       Source: Anonymous visits performed by TIGTA auditors.

The results of auditors’ visits were shared with TAC managers, who discussed the results with
those employees who responded to our tax law questions. All results of the review were
analyzed to identify any trends or concerns.

Accuracy increases when assistors take the time to follow required procedures
and ask probing questions
Assistors continued to respond to tax law questions without taking the time to use the required
tools to ask all the probing questions outlined in the Guide. The risk that taxpayers will receive
inaccurate answers is increased when assistors do not follow required procedures and take the

                                                                                             Page 5
                        Customer Service at Taxpayer Assistance Centers
                       Showed Improvement During the 2006 Filing Season



time to ask probing questions. Accuracy was 85 percent when assistors used the required tools
and 45 percent when assistors did not use the required tools. Figure 3 shows a comparison of tax
law questions answered and accuracy rates when assistors use the Guide.
                            Figure 3: Proper Use of the Guide




                            Source: Anonymous visits performed by TIGTA
                            auditors.

During their visits, auditors asked two questions. Assistors were more likely to use the Guide
only when answering the first question. For example, when answering the first question,
assistors used the Guide and/or a publication to answer 72 (72 percent) of the 100 questions.
However, when auditors asked the second question, assistors used the Guide to respond to only
64 (64 percent) of the 100 questions. The Field Assistance Office mandates use of the Guide and
warns there will be no allowable deviation from use of the Guide.
Assistors advised us that when they did not use the Guide to answer tax law questions it was
because they felt rushed to ensure customers did not have to wait for extended periods of time or
were not sure which topics were covered in the Guide. In response to our results, TAC
managers, where warranted, issued counseling letters and held individual counseling sessions
with employees. We found the Guide to be an effective tool for ensuring the accuracy of tax law
responses. When developing the scenarios for this review, we followed the steps in the Guide
and were able to determine the correct answer for 55 (98 percent) of the 56 scenarios. We
identified an error in the Guide for one scenario and apparent inconsistencies in the Guide related
to when assistors should/should not use worksheets while assisting taxpayers. IRS management
agreed with our findings, which we provided during the course of the audit, and took immediate
corrective actions.



                                                                                            Page 6
                        Customer Service at Taxpayer Assistance Centers
                       Showed Improvement During the 2006 Filing Season



Unnecessary burden and frustration result when assistors do not or cannot
answer taxpayers’ tax law questions
Instead of answering taxpayers’ tax law questions for 26 (13 percent) of 200 questions asked,
assistors referred auditors to toll-free telephone numbers or publications or did not provide
service. Assistors stated they referred auditors because, for example, they:
•   Believed the questions were outside the scope of their training. All questions asked during
    this review were within the scope of the assistors’ training.
•   Did not want to bother other assistors who were busy assisting taxpayers.
•   Could not locate the topic in the Guide.
In some instances, the Guide had not been updated with the related tax law topic. This happens
because late passage of legislation delays the updating of IRS tax forms and publications. The
Field Assistance Office cannot update its Guide until all forms and publications are published; its
guidelines instruct assistors not to answer taxpayer tax law questions if the current year’s Guide
and/or tax publication is not available. Instead, assistors are instructed to complete a written
referral to contact the taxpayer with an answer when the current publication is available and the
Guide updated.
During the 2006 Filing Season, some sections of the Guide were not available to assistors until
February 23, 2006. During January and February when the Guide had not been updated,
assistors referred 13 of the auditors’ questions instead of using other resources, such as IRS.gov
or the prior years’ publications, to research the topics.
The IRS considers it a procedural error when an assistor does not or is unable to answer a
question. The IRS does not consider an assistor’s not answering a question when calculating its
accuracy rate. Nonetheless, unnecessary burden and considerable frustration result when
taxpayers have traveled to a TAC, have waited to be assisted, and are not provided answers to
their tax law questions.

Taxpayers visiting the TACs found the offices open as advertised
All addresses for the TACs visited during this review matched the addresses posted on IRS.gov
and provided through the toll-free telephone numbers. Of the 50 TACs visited, 48 (96 percent)
had hours of operation that matched those on IRS.gov and the toll-free telephone numbers. This
is a 23 percent improvement from the 2005 Filing Season (18 percentage points, from 78 percent
to 96 percent).
TAC managers are ensuring the addresses and hours of operation for the TACs are accurately
posted to IRS systems for access by IRS employees and taxpayers. Taxpayers can access
IRS.gov and follow links to obtain the addresses and office hours of the TACs located in their
States. Taxpayers that do not have access to the Internet can call the IRS toll-free telephone

                                                                                            Page 7
                        Customer Service at Taxpayer Assistance Centers
                       Showed Improvement During the 2006 Filing Season



numbers or automated telephone messaging systems at the TACs to obtain this information.
Field Assistance Office operating procedures require TAC managers to ensure TAC hours
provided to taxpayers via IRS.gov and the toll-free telephone numbers are accurate and updated
timely.

Taxpayers continue to not be given the opportunity to provide customer
satisfaction feedback
Although most assistors identified themselves and were courteous and professional when
responding to taxpayers’ questions, they offered auditors the Customer Survey Comment Cards
in only 55 (55 percent) of 100 TAC visits. This is comparable to the results from our
2005 Filing Season review. The IRS developed Comment Cards to obtain from taxpayers
feedback on the quality of service they received at the TACs. Assistors are required to offer a
Comment Card to every taxpayer who is provided face-to-face service. However, assistors do
not always follow these procedures. This reduces the effectiveness of the Customer Satisfaction
Survey the IRS uses to measure the quality of service at the TACs.
Obtaining sufficient customer feedback with which to appropriately measure customer
satisfaction at the TACs has remained a challenge. Customers are a vital source of feedback on
the performance of the organization. We believe the most valuable resource an organization can
have is a steady and credible flow of information between itself and its customers. However,
because we have previously reported this condition, we are making no recommendations about it
in this report.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should develop or
modify procedures to ensure assistors provide answers to taxpayers’ tax law questions. The
guidelines should reinforce current referral procedures, including how assistors should respond
to taxpayers’ tax law questions when the Guide has not been updated.
       Management’s Response: IRS management agreed with this recommendation. The
       Field Assistance Office has clarified its procedures for handling tax law inquiries during
       the transition period from the beginning of the filing season until the current year
       publication and the current year Guide are available. The new procedures instruct
       assistors to answer questions if a current year publication is available, even if the Guide
       has not yet been updated.
       Office of Audit Comment: Although IRS management agreed with our
       recommendation, the corrective action implemented does not address all of our concerns.
       The newly implemented procedures allow assistors to answer tax law questions without a
       current year Guide only when the current year publication addressing the issue is
       available. However, assistors are still instructed not to answer tax law questions when

                                                                                           Page 8
                        Customer Service at Taxpayer Assistance Centers
                       Showed Improvement During the 2006 Filing Season



       the current year publication is not available, even though they have been trained on new
       tax law changes. This could create unnecessary burden and considerable frustration
       when taxpayers travel to a TAC, wait to be assisted, and are not provided answers to their
       tax law questions.

The Field Assistance Office Considered the Effects of Hurricanes
Katrina and Rita and Took Numerous Actions to Provide Broad Relief
for Taxpayers
During the 2006 Filing Season, we visited 20 TACs in areas affected by Hurricanes Katrina and
Rita. All 20 were open, and auditors generally waited fewer than 30 minutes for assistance.
TAC assistors treated auditors courteously and professionally. Additionally, TAC assistors
correctly applied the tax law when answering 60 (75 percent) of the 80 tax law questions auditors
asked relating to the KETRA. They misapplied the tax law for 6 (8 percent) of 80 tax law
questions asked. Therefore, TAC assistors correctly answered 60 (91 percent) of 66 questions.
For the other 14 (18 percent) of 80 questions, either the assistors did not or could not answer the
questions and/or referred taxpayers to other IRS sources. Figure 4 provides a breakdown of
employees’ answers to tax law questions.




                                                                                            Page 9
                          Customer Service at Taxpayer Assistance Centers
                         Showed Improvement During the 2006 Filing Season



                      Figure 4: Responses to 80 KETRA Tax Law Questions

                 COMPARISON OF TIGTA AND IRS METHODOLOGIES
                        FOR DETERMINING ACCURACY
                               2006 Filing Season
                                                                            IRS
                                                     IRS                EMBEDDED
                            TIGTA                  MODIFIED           QUALITY SYSTEM
                         METHODOLOGY             METHODOLOGY          METHODOLOGY

                        Number   Percentage     Number Percentage Number      Percentage

          Correctly
                          60          75%           60          91%    43         65%
          Answered
          Incorrectly
                          6           8%            6           9%     23         35%
          Answered
          Referred
          to Other
                          7           9%            0           0%      0          0%
          IRS
          Functions
          Incorrectly
          Referred
                          6           8%            0           0%      0          0%
          to
          Publication
          Service
          Not             1           1%            0           0%      0          0%
          Provided

            Total
          Questions,
           Overall       80          75%           66           91%    66         65%
          Accuracy
            Rate
        Source: Anonymous visits performed by TIGTA auditors.

In addition, the Field Assistance Office took numerous actions to provide broad relief to
taxpayers affected by Hurricanes Katrina and Rita. It added services for the 2006 Filing Season
to help lessen taxpayer burden. Taxpayers affected by Hurricanes Katrina and Rita will be
treated as meeting extreme hardship criteria, which will allow affected taxpayers to request and
receive transcripts of prior year tax returns instead of having to order them and wait for delivery.
The scope of tax law topics in which assistors are trained was expanded to provide assistance for
taxpayers with questions about casualty losses. Taxpayers affected by the Hurricanes also will
be able to have current and prior year tax returns prepared by the IRS even though their income
levels exceed the income requirement.

                                                                                            Page 10
                              Customer Service at Taxpayer Assistance Centers
                             Showed Improvement During the 2006 Filing Season



Taxpayers Making Payments Are Not Given Priority at the Taxpayer
Assistance Centers
The Field Assistance Office recognizes that taxpayers coming into the TACs to obtain forms or
to make payments require less time with assistors than those coming in for tax law or account
assistance. Therefore, beginning in October 2005, the Field Assistance Office implemented a
policy requiring group managers to set the Q-Matic System’s priority based on available
employees, number of appointments, and expected traffic in the TAC.9 The TACs with screeners
or assistors are to ensure each customer receives a Q-Matic System ticket that gives priority
treatment to taxpayers that are requesting forms or making payments. If applied properly, this
process would reduce taxpayer burden and allow taxpayers to meet their tax obligations.
However, during testing:
•      At 1 TAC, 30 taxpayers waiting for assistance were turned away so the IRS could clear the
       TAC by the 4:30 p.m. closing time. Five of the 30 taxpayers had payments totaling
       $135,000. ****1****
•      At a second TAC, a taxpayer sat down next to one of the auditors posing as a taxpayer. The
       taxpayer had come to make a tax payment and complained taxpayers should not have to wait
       to make payments. At the time of this instance, there were approximately 34 taxpayers in the
       TAC.
•      At 10 of 13 TACs where we specifically tested to determine whether auditors with payments
       would receive priority, auditors with tax law questions were called prior to the auditors who
       only wanted to make a payment. The average wait time for auditors visiting the 13 TACs
       was 23 minutes.
After we raised this concern to Field Assistance Office management, they explained that some
TACs using the Q-Matic System have not been programming it to ensure taxpayers with
payments get priority. TAC assistors have expressed concerns that taxpayers waiting for
assistance are frustrated when they see taxpayers who arrived after they did get served before
they are. TAC assistors believe trying to explain the Q-Matic System to taxpayers is a
significant challenge. Another challenge is providing assistance to taxpayers at the end of the
day when the TAC is scheduled to close and the waiting room is full.
We were advised that steps were being taken to review and revise procedures to ensure TAC
managers have a process to better manage taxpayer traffic, including how to assist taxpayers at
the end of the day. It is essential that the IRS not turn away taxpayers trying to make payments.
Not only does this significantly frustrate and burden taxpayers because they made an
unnecessary trip, it also could cost taxpayers additional interest and/or penalties.


9
    The Q-Matic System is an automated queuing system used to control the flow of taxpayers waiting for assistance.
                                                                                                           Page 11
                       Customer Service at Taxpayer Assistance Centers
                      Showed Improvement During the 2006 Filing Season



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should develop
guidelines and provide training to TAC managers and assistors on how to manage customer
traffic and wait times. This includes educating taxpayers on the Q-Matic System and developing
consistent procedures to address and appropriately prioritize payments when experiencing high
customer traffic and wait times.
       Management’s Response: IRS management agreed with this recommendation. The
       Field Assistance Office revised its procedures to ensure TAC managers have a process to
       better manage taxpayer traffic, including how to assist customers at the end of the day.
       The instructions specifically require the solicitation of payments and forms. To provide
       better training on managing traffic and wait times, the Field Assistance Office will update
       its “Managing a TAC” training. This course includes a section on monitoring Q-Matic
       System traffic and analyzing wait time. Lastly, to educate taxpayers on how the Q-Matic
       System works, the Field Assistance Office will revise Document 12069, which explains
       the Q-Matic System numbering and routing process, to make it clearer.




                                                                                          Page 12
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including correct answers to their questions, when visiting Taxpayer Assistance Centers (TAC)
to get answers to their tax law questions.1 This audit was conducted at the request of the Internal
Revenue Service (IRS) and in conjunction with the President’s Council on Integrity and
Efficiency as part of its examination of relief efforts provided by the Federal Government in the
aftermath of Hurricanes Katrina and Rita. To accomplish our objective, we:
I.      Determined whether the IRS provided quality service and accurate responses to tax law
        inquiries at a total of 70 (out of 400) TACs visited from January through April 2006.2
        Auditors visited 10 TACs in each of the 5 geographical areas plus 20 TACs in areas
        heavily affected by Hurricanes Katrina and Rita. We asked 280 tax law questions that
        individual taxpayers might ask.3 The questions were based upon the scope of services for
        tax law assistance prescribed in the 2006 Field Assistance Office guidelines. We used
        judgmental sampling because statistical sampling would have required more resources
        than were available.
        •    Selection of 50 TACs to ask standard tax law questions: We judgmentally selected
             large, medium, and small TACs from each of the five areas so we could visit the
             TACs with the highest tax law volumes. We excluded the TACs selected in
             Fiscal Year 2005.
        •    Selection of 20 TACS located in areas heavily affected by Hurricanes Katrina and
             Rita to ask tax law questions related to the Katrina Emergency Tax Relief Act of
             2005 (KETRA):4 We judgmentally selected TACs from States affected by
             Hurricanes Katrina and Rita. This included the TACs with a large population of
             displaced taxpayers.
        •    Developed 47 standard scenarios around specific tax topics designed to require
             assistors to ask questions, for example, to determine taxpayers’ eligibility for


1
  Internal Revenue Service employees, called assistors, in the TACs help taxpayers by interpreting tax laws and
regulations, preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing various other
services designed to minimize the burden on taxpayers in satisfying their tax obligations.
2
  See Appendix VI for specific cities and States visited.
3
  Individual taxpayers are nonbusiness taxpayers that file U.S. Individual Income Tax Returns (Forms 1040, 1040A,
or 1040EZ).
4
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).

                                                                                                        Page 13
                        Customer Service at Taxpayer Assistance Centers
                       Showed Improvement During the 2006 Filing Season



          deductions and credits. We also developed 10 additional scenarios related to the
          KETRA. The responses to these questions were not included in determining the
          overall accuracy rate; the results to the KETRA questions are reported separately.
       At each TAC visited, we:
       A. Determined the quality of services provided by the assistors.
       B. Determined whether TAC addresses and office hours provided to taxpayers via the
          IRS Internet web site (IRS.gov), toll-free telephone numbers, and automated
          telephone messaging systems matched information posted at the TACs.
       C. Determined whether the Customer Survey Comment Cards were available at the
          TACs and offered to taxpayers.
       D. Made general observations at each TAC, such as the number of taxpayers waiting in
          line, the number of assistors helping taxpayers, handicap accessibility, the
          cleanliness/organization of the office, and parking fee requirements.
II.    Calculated the accuracy rates of the responses using the Treasury Inspector General for
       Tax Administration’s previous methodology and the IRS’ Embedded Quality system
       methodologies. These calculations do not include results from the 20 selected TACs
       most affected by Hurricanes Katrina and Rita.
III.   Determined whether there are identifiable trends resulting from auditor visits to the
       TACs.
IV.    Followed up on IRS corrective actions taken based on results and recommendations made
       in prior bimonthly and semiannual audit reports.




                                                                                          Page 14
                      Customer Service at Taxpayer Assistance Centers
                     Showed Improvement During the 2006 Filing Season



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula Johnson, Audit Manager
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Andrea Hayes, Lead Auditor
Ken Carlson, Senior Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
Robert Howes, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jean Bell, Auditor
Jerry Douglas, Auditor
Roberta Fuller, Auditor
Kathy Henderson, Auditor
Patricia Jackson, Auditor
Geraldine Vaughn, Auditor




                                                                                   Page 15
                      Customer Service at Taxpayer Assistance Centers
                     Showed Improvement During the 2006 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 16
                             Customer Service at Taxpayer Assistance Centers
                            Showed Improvement During the 2006 Filing Season



                                                                                                  Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Taxpayer Burden – Potential; 29 incorrect answers to tax law questions (see page 3).

Methodology Used to Measure the Reported Benefit:

If the accuracy results for the 200 tax law questions we asked during the 2006 Filing Season (the
period from January through mid-April when most individual income tax returns are filed) are
indicative of the actual responses taxpayers receive when they visit a Taxpayer Assistance
Center,1 we estimate 29 taxpayers could have received incorrect responses to tax law questions.




1
  Internal Revenue Service employees, called assistors, in the Taxpayer Assistance Centers help taxpayers by
interpreting tax laws and regulations, preparing certain tax returns, resolving inquiries on taxpayer accounts, and
providing various other services designed to minimize the burden on taxpayers in satisfying their tax obligations.
                                                                                                             Page 17
                              Customer Service at Taxpayer Assistance Centers
                             Showed Improvement During the 2006 Filing Season



                                                                                                 Appendix V

                           Taxpayer Assistance Center
                          Service and Quality Assurance

Because of the complexity of the tax law and the need to assist approximately 600,000 taxpayers
with tax law questions, Taxpayer Assistance Center (TAC) assistors are not trained to answer all
types of tax law questions. Instead, they are trained on specific tax topics and are authorized to
answer only those questions within this expertise. These are called in-scope questions; they
include specific tax law topics related to lines on the U.S. Individual Income Tax Return
(Form 1040) such as income, filing status, exemptions, deductions, and credits.

          Figure 1: Taxpayer Asking a Tax Law                            When a taxpayer walks into a TAC,
                    Question at a TAC                                    he or she uses the Q-Matic System
                                                                         to select the type of assistance
      Taxpayer           Greeter               Taxpayer                  desired (e.g., return preparation, tax
      Enters             Determines            Takes                     law question, account inquiry,
      the TAC            Tax Law               Number
                         Issue                                           payment).1 In some large TACs, an
                                                                         Internal Revenue Service (IRS)
                                                                         employee called a screener
                                                                         determines the reason for a
                                                                         taxpayer’s visit and makes the
                                                                         Q-Matic System choice for the
                                           Assistor Calls
                                           Taxpayer                      taxpayer. Once a choice is made,
             Assistor                      From the                      the taxpayer is issued a number and
             Answers Tax
                                           Queue                         waits for assistance until that
             Law Question
                                                                         number is called. Figure 1 shows an
                                                                         example of how this works for a
                                                                         taxpayer asking a tax law question.
                                                              When assisting taxpayers, assistors
                                                              must first determine if the tax law
  Source: The IRS Field Assistance Office.
                                                              questions are in-scope questions. If
they are, assistors are required to use the Publication Method Guide (Guide) or tax instructions,
forms, and publications to provide the answers. The Guide contains over 1,000 pages and covers
approximately 77 tax law topics. Assistors are required to use the Guide as a tool to navigate
through the complex maze of tax laws and computations. The Guide is available either in paper


1
    The Q-Matic System is an automated queuing system used to control the flow of taxpayers waiting for assistance.
                                                                                                           Page 18
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



or electronically. The paper version includes the same information as the electronic version, but
it is maintained in binders. Assistors in small TACs are more likely to use the paper version
because computers may not be readily available at the counter.
For each in-scope tax law topic, an assistor uses the Guide to ask the taxpayer approximately
9 to 37 conditional questions to determine the correct answer to the tax law question. In
addition, the Guide includes excerpts from tax publications assistors can use to “walk” the
taxpayer through to provide an answer to the question. The Dependency topic in the Guide
covers 14 pages and includes 37 conditional questions an assistor must ask to determine if the
taxpayer can claim the dependent exemption. For example, a taxpayer asks whether he or she
can claim his or her 19-year-old child as a dependent. The assistor uses the Guide for the
following:
First.       To ask if the child has a valid Social Security Number and for the amount of the
             taxpayer’s adjusted gross income because exemptions are phased out if the adjusted
             gross income exceeds filing status amounts.2
Second.      If the child has a valid Social Security Number and the adjusted gross income is
             within appropriate limits, five more tests must be met for the taxpayer to claim the
             child as a dependent.
             1. Member of Household or Relationship Test. The assistor asks for information
                concerning the nature of the relationship (son, daughter, niece, etc.) or, if the child
                is not a qualifying relative, how long the child has lived in the home with the
                taxpayer.
             2. Citizenship Test. The assistor asks if the child is a United States citizen or
                resident alien.
             3. Joint Return Test. The assistor asks if the child is single or married.
             4. Gross Income Test. The assistor asks for the amount of the child’s gross income.
             5. Support Test. The assistor asks for the amount of support the taxpayer provided
                the child during the tax year.
Third.       If all five tests are met, the assistor advises the taxpayer that he or she may claim the
             child as a dependent.
To measure its customer service, beginning in Fiscal Year 2004, the Field Assistance Office
began implementation of the Embedded Quality system, which links employee performance to
organizational results related to the quality of customer service. This method was designed to
distinguish between “wrong” answers and procedural errors that do not affect the accuracy of the

2
 The adjusted gross income is a taxpayer’s gross income for the year adjusted for certain exclusions from income
provided for in the Internal Revenue Code.
                                                                                                         Page 19
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season



answer. During 2006, the Field Assistance Office continued testing the use of Contact
Recording in 14 TACs. Contact Recording is an automated quality monitoring system that
captures voice elements of customers’ contacts and employees’ corresponding computer desktop
activities, including customer account activity. We plan to conduct a review of the system in
Fiscal Year 2007.
For TACs without Contact Recording, the Embedded Quality system requires TAC managers to
observe assistors’ contacts with taxpayers and measure performance against predetermined
standards. To accomplish this, Field Assistance Office managers currently observe a statistical
sample of assistors’ interactions with taxpayers using attributes to identify specific aspects of the
assistor/taxpayer interaction that need to be considered when measuring the quality of customer
service. These attributes are mapped to the employee’s Critical Job Elements that are divided
into five quality measures:
•   Customer Accuracy – giving the taxpayer the correct answer with the correct resolution.
•   Regulatory Accuracy – adhering to statutory/regulatory process requirements when making
    determinations on taxpayer accounts.
•   Procedural Accuracy – adhering to nonstatutory/nonregulatory internal process requirements.
•   Professionalism – promoting a positive image of the IRS by using effective communication
    techniques.
•   Timeliness – resolving an issue in the most efficient manner through the use of proper
    workload management and time use techniques.
The Customer Accuracy, Professionalism, and Timeliness measures are reported to the
IRS Commissioner as part of three IRS balanced measures (employee satisfaction, customer
satisfaction, and business results). The IRS uses these balanced measures to gauge
organizational and employee performance. The Regulatory Accuracy and Procedural Accuracy
measures are reported internally to IRS management to identify trends and training opportunities.
The Customer Accuracy measure is also reported externally to IRS stakeholders (e.g., Congress
and the Government Accountability Office) and is used as part of the reporting requirement of
the Government Performance and Results Act of 1993.3




3
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 20
                                     Customer Service at Taxpayer Assistance Centers
                                    Showed Improvement During the 2006 Filing Season



                                                                                                                Appendix VI

                          Taxpayer Assistance Centers                                                   1



                      Visited During the 2006 Filing Season                                                         2




                                                                                      Appleton
                 Salt Lake City                                                      Green Bay
                                                                                      Madison                                Augusta
     Bellevue                                                                        Milwaukee
                                                      Cheyenne                                                               Lewiston
    Silverdale
    Vancouver
                                                                                        Downers Grove
                                                       Colorado Springs                                                 Manchester
                                                                                          Rockford
    Portland
     Salem                                                   Jefferson City                          Philadelphia
                                                              Springfield                             Pittsburgh
                                                                                                       Reading
                                                                                                     Washington




                                                                                                                                     Brockton


                                                                                                                                  Waterbury


                                                                                                                                Paterson



           El Monte
            Salinas                                                                                                          Asheville
           San Jose                                                                      Dothan
                                  Phoenix (HQ)                                                                               Charlotte
           Van Nuys                                                                     Huntsville
                                  Phoenix (NW)                                                                              Fayetteville
          Walnut Creek                                                                   Mobile*
                                     Tucson                                                                                 Wilmington
                                                                                                                           Winston Salem
                                                                                  Atlanta (Summit)*
                                        Austin                                     Atlanta (Koger)*
                                     Corpus Christi         Alexandria*                                                    Fort Myers
                                      San Antonio          Baton Rouge*                 Chattanooga                         Melbourne
                                        Dallas*               Houma*                     Memphis*                             Miami
                                    Farmers Branch*          Lafayette*                                                     Sarasota
                                     Houston (SW)*         Lake Charles*       Gulfport*                                   Pensacola*
                                     Houston (NW)*         New Orleans*       Hattiesburg*                                Port St. Lucie*
                                                            Shreveport*        Jackson*                                    Tallahassee




1
  Taxpayer Assistance Centers with an asterisk (*) represent offices at which auditors asked tax law questions
related to the Katrina Emergency Tax Relief Act of 2005, Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in
scattered sections of 26 U.S.C.).
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                                 Page 21
                               Customer Service at Taxpayer Assistance Centers
                              Showed Improvement During the 2006 Filing Season



                                                                                                Appendix VII

                         Accuracy Rates by Tax Law Topic
                          During the 2006 Filing Season1

                                                                   Referred
                                                       Correctly   to Other                  Incorrectly
                                                                                                           Service2
                              Questions   Correctly    Answered     Internal   Incorrectly    Referred
    Tax Law Topics                                                                                           Not
                               Asked      Answered        but      Revenue      Answered         to
                                                                                                           Provided
                                                      Incomplete     Service                 Publication
                                                                   Functions
    Adoption Credit              2        2 (100%)       ---          ---          ---           ---         ---
    Adjustments to Income        3         2 (67%)       ---          ---       1 (33%)          ---         ---
    Alimony                      6         4 (67%)       ---          ---       2 (33%)          ---         ---
    Amended Return               12        9 (75%)     2 (17%)        ---        1 (8%)          ---         ---
    Archer Medical Savings
                                 3         1 (33%)       ---          ---       1 (33%)          ---       1 (33%)
    Account Deduction
    Capital Gains/Losses         5         3 (60%)       ---        1 (20%)        ---        1 (20%)        ---
    Casualty Losses              3         1 (33%)       ---          ---       1 (33%)       1 (33%)        ---
    Charitable Contribution      9         6 (67%)       ---          ---       2 (22%)       1 (11%)         ---
    Child Support                6         2 (33%)     4 (67%)        ---          ---           ---         ---
    Child Tax Credit             9         3 (33%)       ---          ---       3 (33%)       2 (22%)      1 (11%)
    Child Care Credit            3         1 (33%)       ---          ---       2 (67%)          ---         ---
    Dependents                   19       17 (89%)       ---          ---       2 (11%)          ---         ---
    Earned Income Tax
                                 22       19 (86%)      1 (5%)        ---        1 (5%)        1 (5%)        ---
    Credit
    Education Credit             9         5 (56%)       ---          ---       2 (22%)       1 (11%)      1 (11%)
    Educator’s Expense           4         3 (75%)       ---        1 (25%)        ---           ---         ---
    Elderly Credit               2        2 (100%)       ---          ---          ---           ---         ---
    Estimated Tax Penalty        7         2 (29%)     2 (29%)      1 (14%)     2 (29%)          ---         ---
    Filing Status                14       12 (86%)      1 (7%)        ---          ---           ---        1 (7%)



1
  Percentages do not add to 100 due to rounding. The filing season is the period from January through mid-April
when most individual income tax returns are filed.
2
  The Internal Revenue Service assistor chose not to answer the question because he or she had not received the
current tax year Publication Method Guide or assumed the auditor did not have information needed to answer all
probing questions.
                                                                                                            Page 22
                            Customer Service at Taxpayer Assistance Centers
                           Showed Improvement During the 2006 Filing Season




                                                                Referred
                                                    Correctly   to Other                  Incorrectly
                                                                                                        Service2
                           Questions   Correctly    Answered     Internal   Incorrectly    Referred
  Tax Law Topics                                                                                          Not
                            Asked      Answered        but      Revenue      Answered         to
                                                                                                        Provided
                                                   Incomplete     Service                 Publication
                                                                Functions
  Gambling Income/Losses      3         2 (67%)       ---          ---       1 (33%)          ---         ---
  Innocent Spouse             3         2 (67%)     1 (33%)        ---          ---           ---         ---
  Interest Income             4           ---         ---        1 (25%)     3 (75%)          ---         ---
  Lump Sum Distribution       5         2 (40%)       ---          ---       1 (20%)       2 (40%)        ---
  Medical Expenses            2        2 (100%)       ---          ---          ---           ---         ---
  Moving Expenses             2         1 (50%)       ---          ---          ---        1 (50%)        ---
  Refinance Points            3           ---         ---          ---       1 (33%)       1 (33%)      1 (33%)
  Retirement                  11        7 (64%)      1 (9%)      2 (18%)        ---         1 (9%)        ---
  Sale of Home                5         4 (80%)     1 (20%)        ---          ---           ---         ---
  Scholarship                 4         2 (50%)       ---          ---       2 (50%)          ---         ---
  Social Security Income      11        7 (64%)       ---          ---        1 (9%)       3 (27%)        ---
  Student Loan Interest       1        1 (100%)        --          ---          ---           ---         ---
  Qualified Plans             6        6 (100%)       ---          ---          ---           ---         ---
  Uniforms/Work Clothes       2        2 (100%)       ---          ---          ---           ---         ---
  Totals                     200       132 (66%)    13 (7%)      6 (3%)      29 (15%)      15 (8%)       5 (3%)

Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




                                                                                                         Page 23
        Customer Service at Taxpayer Assistance Centers
       Showed Improvement During the 2006 Filing Season



                                               Appendix VIII

Management’s Response to the Draft Report




                                                          Page 24
 Customer Service at Taxpayer Assistance Centers
Showed Improvement During the 2006 Filing Season




                                                   Page 25
 Customer Service at Taxpayer Assistance Centers
Showed Improvement During the 2006 Filing Season




                                                   Page 26
 Customer Service at Taxpayer Assistance Centers
Showed Improvement During the 2006 Filing Season




                                                   Page 27
